                                                                  OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 1 of 3) Version 3.0
               Reporting Entity: Department of Transportation ‐ OIG
             Month Ending Date: 07/31/2009

                                                                 Recovery Act Funds Used on Recovery Act Activity
           Agency / Bureau                  Recovery Act TAFS           Sub‐Account Code    Award Type       US Indicator        State Code       Total Obligations   Total Gross 
                                                                           (OPTIONAL)                                         (ONLY for grants                          Outlays
                                                                                                                              and cooperative 
No.                                                                                                                             agreements)
    Department of Transportation ‐(69‐0131 2009 \ 2013)                                        Other            Y ‐ US                               $181,940         $158,727 
    OIG                           Transportation ‐ OIG ‐ 
  1                               Recovery Act
  2
  3
  4
  5
  6
  7
  8
  9
 10

                                                     Non-Recovery Act Funds Used on Recovery Act Activity
           Agency / Bureau               Non‐Recovery Act TAFS          Sub‐Account Code    Total FY 2009    Total FY 2009     Total FY 2010       Total FY 2010 
                                                                           (OPTIONAL)        Obligations     Gross Outlays      Obligations        Gross Outlays
No.
    Department of Transportation ‐    (69-0130 2009) Transportation -                           $1,024,770         $939,057
  1 OIG                               OIG
  2
  3
  4
  5
  6
  7
  8
  9
 10
                                                         OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 2 of 3) Version 3.0
           Reporting OIG: Department of Transportation ‐ OIG
       Month Ending Date: 07/31/2009

        Recovery Act New Hires                            Testimonies:
          Hired (monthly):    1.00                 Provided (monthly):          0

        Hired (cumulative):       5.15           Provided (cumulative):         3


                                                                                                                                      Audits / Inspections / Evaluations / 
               Complaints                     Whistleblower Reprisal Allegations                      Investigations
                                                                                                                                                    Reviews
                                                                                Monthly Data
                  Received:        28                         Received:         0                           Opened:         0                          Initiated:    0
                                                              Accepted:         0                            Active:        6                        In Process:     1
                                                                                                                                                Completed Final 
                                                                                                  Pending Decision:         2                   Published Work       0
                                                                                                                                                      Products:
                                                                                                                                              Completed Final
                                                                                             Closed without Action:         0                Unpublished Work
                                                                                                                                                    Products*:       0
                                                                                                      Accepted for 
                                                                                                                            0
                                                                                                      Prosecution:                       Interim Work Products:      0
                                                                                               Prosecution Denied:          0

                                                                                            Referred for Alternative 
                                                                                                                            0
                                                                                                         Resolution:
                                                                      Cumulative Data Since 2/17/09
                                                                                                                                               Completed Final 
                  Received:       95**                         Received:        0            Closed without Action:         0                  Published Work        3
                                                                                                                                                     Products:
                                                                                                                                               Completed Final 
                                                                                                       Accepted for 
                                                              Accepted:         0                                           6                Unpublished Work        0
                                                                                                       Prosecution:
                                                                                                                                                    Products*:

                                                                                               Prosecution Denied:          0           Interim Work Products:       0

                                                                                            Referred for Alternative 
                                                                                                                            1                 Cumulative Total:      3
                                                                                                         Resolution:

                                                                                                  Cumulative Total:         7
*These work products were not published because they contain proprietary or other sensitive information that cannot be made available to the public.
** An additional 3 complaints from prior months were identified as ARRA complaints and added to the cumulative total.  
                                       OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 3 of 3) Version 3.0
      Reporting OIG: Department of Transportation ‐ OIG
  Month Ending Date: 07/31/2009

       No.                       OTHER TYPES OF SIGNIFICANT ACTIVITIES (Completed/On-Going During Reporting Month)
                     On July 20, the Assistant Inspector General for Surface and Maritime Program Audits spoke at the American Association
        1            of State Highway and Transportation Officials' 2009 Conference - Subcommittee on Internal and External Audits on our
                     oversight of DOT's implementation of ARRA and other audit issues.
                     On July 29, the DOT OIG participated, along with other Federal IGs, in a webinar with the New York State Internal Review
        2            Task Force. The webinar focused on the role of the Federal OIGs and the Recovery Accountability and Transparency
                     Board, as well as how the OIGs and New York agencies can best coordinate their ARRA activities.
                     In July, DOT OIG investigations provided fraud prevention and awareness briefings to over 600 Federal, state, and local
        3
                     transportation officials in 9 states.
        4
        5
        6
        7
        8
        9
        10

       No.                                    OTHER TYPES OF SIGNIFICANT ACTIVITIES (Planned for the Future)
                     Issue "ARRA Advisories" to the Department and Congress when we identify vulnerabilities that could impede DOT’s ability
        2
                     to provide effective oversight to ARRA-funded projects and meet new requirements
        3            Continue to monitor for fraudulent schemes in the contracting process.
        4            Continue fraud prevention and awareness briefings and outreach efforts.
        5
        6
        7
        8
        9
        10
